 

No. 19-1357

 

IN THE
Supreme Court of the Auited States

ROBERT A. PEREZ,
Petitioner,
7.

STATE OF COLORADO,
Respondent.

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Constitutional Accountability Center as Amicus Curiae in Support of Petitioner
contains 4,731 words, excluding the parts of the document that are exempted by

Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 13, 2020.

Brianne J™Gorod

Counsel for Amicus Curiae
